                         U.S. Department of Agriculture

                            Office of Inspector General
                                     Southwest Region




            Audit Report
Federal Assistance Grants to Producers Along
          the Rio Grande in Texas




                               Report No. 03099-180-Te
                                       September 2004
                 UNITED STATES DEPARTMENT OF AGRICULTURE
                                  OFFICE OF INSPECTOR GENERAL

                                       Washington D.C. 20250


DATE:         September 30, 2004

REPLY TO
ATTN OF:      03099-180-Te

SUBJECT:      Federal Assistance Grants to Producers Along the Rio Grande in Texas

TO:           James R. Little
              Administrator
              Farm Service Agency

ATTN:         T. Mike McCann
              Director
              Operations Review and Analysis Staff


This report presents the results of our audit survey of Federal Assistance Grants to Producers
Along the Rio Grande in Texas. Your agency’s response to the draft report is included as
exhibit B, and the Texas Department of Agriculture’s response is included as exhibit C.
Excerpts of the responses and the Office of Inspector General’s (OIG) position are
incorporated into the relevant sections of the report.

Based on the response, management decision has been reached on Recommendation No 3.
Follow your internal agency procedures in forwarding final action correspondence to the
Office of the Chief Financial Officer, Planning and Accountability Division. The actions
needed to reach management decisions for Recommendations Nos. 1, 2, and 4 are described in
the OIG Position sections of the report.

Please furnish the information needed to reach management decisions on the recommendations
within 60 days. Please note that Departmental Regulation 1720-1 requires a management
decision for all recommendations within a maximum of 6 months from the date of report
issuance, and final action to be taken within 1 year of the date of the management decision to
preclude being listed in the Department’s annual Performance and Accountability Report.

We appreciate the courtesies and cooperation extended to us by members of your staff and by
the Texas Department of Agriculture officials.



      /RWY/
ROBERT W. YOUNG
Assistant Inspector General
 for Audit
Executive Summary
Federal Assistance Grants to Producers Along the Rio Grande in Texas
(Audit Report No. 03099-180-Te)

Results in Brief                     For crop-years 2001 and 2002, Congress authorized two grants totaling
                                     $20 million to assist agricultural producers located along the Texas Rio
                                     Grande. These producers experienced water losses due to Mexico’s failure to
                                     deliver river water to the United States in accordance with a treaty governing
                                     the use of water from the Rio Grande. The grants were funded through the
                                     Commodity Credit Corporation (CCC)1 and were administered by the State
                                     of Texas through the Texas Department of Agriculture (TDA). Our
                                     objectives were to determine the adequacy of controls over the approval and
                                     distribution of grant funds, eligibility of producers for payments, and
                                     correctness of payments made to producers.

                                     Our review of the Federal assistance grants determined that TDA made a
                                     conscious effort to administer the grants in an effective and efficient manner
                                     and generally established reasonable controls related to approval of grant
                                     funds and eligibility of producers. However, TDA’s controls over the
                                     accuracy of producer payments could have been improved. Of the 1,416
                                     payments sampled, totaling $6,460,269, we determined that TDA paid four
                                     producers duplicate payments totaling over $54,000, of which all but $392
                                     has been recovered.

                                     Additionally, TDA officials developed a plan for disbursing the $20 million
                                     in grant assistance in a manner they considered legal and appropriate based in
                                     part on studies by the Texas Cooperative Extension Service and U.S.
                                     Department of Agriculture’s (USDA) Office of the Chief Economist.
                                     However, we are asking that the Office of the General Counsel (OGC) review
                                     the plan to determine whether the plan fully conformed to the law.

                                     Further, we found that the Farm Service Agency (FSA) did not incorporate
                                     into the grant agreement a requirement for TDA to offset Federal debt owed
                                     by producers against the grants’ funds. Therefore, TDA did not offset any
                                     Federal debt, but did offset $17,462 in State debt.

                                     We identified four additional issues that are discussed in the general
                                     comments section of the report. Specifically, TDA had not always forwarded
                                     earned interest on grant funds quarterly; TDA had not planned to report
                                     payments as income to the Internal Revenue Service; TDA had not developed
                                     written procedures to require monitoring of user access to the accounting
                                     system; and TDA had not returned the remaining grant funds at the end of the


1
  CCC has no operating personnel, but generally relies on employees and facilities of FSA to administer and support its operations. Further, FSA’s
Administrator is CCC’s Executive Vice President.

USDA/OIG-A/03099-180-Te                                                                                                                              i
                     grant periods. These matters were satisfactorily resolved during our review,
                     and therefore, we are not making any recommendations.

Recommendations
In Brief             We recommend that FSA direct TDA to review producers’ payments for 2001
                     and 2002 crop-years to determine if additional duplicate payments were
                     made. We recommend that the FSA National Office request OGC to
                     determine whether grant assistance was disbursed in accordance with the law.
                     We further recommend that FSA request OGC to determine whether Federal
                     debt offset procedures can be incorporated as a requirement in CCC-funded
                     grant agreements.

Agency Responses FSA and TDA officials concurred with the recommendations in our audit
                 report. (See exhibits B and C.)

OIG Position         We concur with TDA’s planned corrective action measures; however, to
                     reach management decisions for Recommendations Nos. 1, 2, and 4, we need
                     further information.        We have explained in the Findings and
                     Recommendations section of the report the actions that are necessary to reach
                     management decisions for Recommendations Nos. 1, 2, and 4 and the actions
                     necessary for final action on Recommendation No. 3.




USDA/OIG-A/03099-180-Te                                                                         ii
Abbreviations Used in This Report

CCC                Commodity Credit Corporation
CFR                Code of Federal Regulations
FSA                Farm Service Agency
IRS                Internal Revenue Service
OGC                Office of the General Counsel
OIG                Office of Inspector General
TDA                Texas Department of Agriculture
USDA               U.S. Department of Agriculture




USDA/OIG-A/03099-180-Te                              iii
Table of Contents

Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................iii

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 3

    Section 1. Grant Administration...................................................................................................... 3

        Finding No. 1 Controls Over Payments to Producers Could Be Enhanced ................................... 3
                          Recommendation No. 1.................................................................................... 4
        Finding No. 2 Distribution of Grant Funds Needs Legal Review .................................................. 4
                          Recommendation No. 2.................................................................................... 6
        Finding No. 3 FSA Did Not Require Offset of Federal Debt......................................................... 7
                          Recommendation No. 3.................................................................................... 8
                          Recommendation No. 4.................................................................................... 8

General Comments ................................................................................................................................. 9

Scope and Methodology........................................................................................................................ 12

Exhibit A – Summary of Monetary Results ....................................................................................... 13
Exhibit B – FSA Response.................................................................................................................... 14
Exhibit C – TDA Response................................................................................................................... 16




USDA/OIG-A/03099-180-Te                                                                                                                          iv
Background and Objectives
Background                            The 2002 Supplemental Appropriations Act (Public Law 107-206) and the
                                      Agricultural Assistance Act of 2003 (Public Law 108-7) authorized the
                                      Secretary of Agriculture to assist agricultural producers located along the Rio
                                      Grande for water losses. Pursuant to these laws, CCC provided $20 million,
                                      $10 million for each of the 2001 and 2002 crop-years, in grant assistance to
                                      the State of Texas, acting through the TDA. CCC and TDA officials signed
                                      two grant agreements, dated October 28, 2002, and March 27, 2003, for each
                                      of the 2001 and 2002 crop-years, respectively. This assistance was directed
                                      to agricultural producers who rely on irrigation water from the Rio Grande
                                      and who suffered economic losses because of the decreases in water
                                      allocations due to Mexico’s noncompliance with the treaty between the
                                      United States and Mexico.2 The treaty requires, in part, that Mexico allot
                                      one-third of the water flow reaching the main channel of the Rio Grande
                                      provided that this third shall not be less, as an average amount in cycles of
                                      5 consecutive years, than 350,000 acre-feet annually.

                                      As of January 2004, Mexico owed the United States 1.3 million acre-feet of
                                      water because it had not complied with the treaty when it fell behind on its
                                      water allotments over the past 10 years. An acre-foot of water is enough to
                                      cover one acre of land with one foot of water. In the spring of 2004, Mexico
                                      began repaying its water debt to the United States.

                                      Based on TDA-established requirements, agricultural producers were eligible
                                      for grant assistance if (1) their farming acreage was located in Cameron,
                                      Hidalgo, Kinney, Maverick, Starr, Val Verde, Webb, Willacy, or Zapata
                                      Counties, Texas; (2) acreage on which the producer was farming was eligible
                                      for water allocations for agricultural use in the Rio Grande water master
                                      system3 through irrigation water rights either individually, or through a water
                                      irrigation district during the 2001 and 2002 crop-years; and (3) the producer
                                      had the right to farm eligible acreage as of January 1, 2001, and 2002. The
                                      distribution of assistance was based upon the number of acres eligible for
                                      water allocation for agricultural use. Assistance primarily went to the
                                      agricultural producers; however, the State could use grant funds for
                                      reasonable administrative costs.

                                      TDA made the applications for Federal agriculture assistance available
                                      through local water irrigation district offices, FSA county offices, and the Rio
                                      Grande water master. Producers submitted their applications to their local
                                      water irrigation district office for certification of the amount of acreage
                                      eligible for assistance. If no irrigation district was located in their county,
2
  Treaty Series 994, Utilization of Waters of the Colorado and Tijuana Rivers and of the Rio Grande (59 Stat.1919), Article 4, effective November 8, 1945
3
  The Texas Commission on Environmental Quality is responsible for the administration of water rights in Texas. The Texas Commission on
Environmental Quality’s water master programs (i.e., Rio Grande water master) ensures compliance with water rights by monitoring stream flows,
reservoir levels, and water use. The water master regulates reservoirs as needed to prevent the wasting of water or to prevent usage beyond a user’s right.

USDA/OIG-A/03099-180-Te                                                                                                                          Page 1
                   producers were to submit their applications to their FSA county offices for
                   certification.  An agricultural producer included persons or entities
                   conducting a farming operation on eligible acreage, but did not include a
                   landowner unless the landowner was also the producer. After certifying the
                   amount of acreage eligible, the local irrigation district offices or FSA county
                   offices were responsible for forwarding the completed applications to TDA
                   for processing. TDA calculated the payments due and processed the
                   producers’ payments.

Objectives         The objectives of this survey were to determine the adequacy of controls over
                   (1) approval and distribution of grant funds, (2) eligibility of producers for
                   payments, and (3) correctness of payments made to producers.




USDA/OIG-A/03099-180-Te                                                                    Page 2
Findings and Recommendations
Section 1. Grant Administration


Finding No. 1                          Controls Over Payments to Producers Could Be Enhanced

                                       TDA’s controls over the producer payment process were generally effective.
                                       For example, TDA identified and resolved several kinds of problems, such as
                                       duplicate acreage and duplicate applications in the same irrigation district,
                                       before making payments. However, additional procedures, such as computer
                                       data analysis techniques, could have detected producers who applied for
                                       payments on the same acreage in multiple irrigation districts. As a result,
                                       TDA issued duplicate payments to four producers totaling over $54,000 for
                                       2002 crop-year payments, of which all but $392 has been recovered.

                                       Federal regulations4 state that grantees are responsible for managing the
                                       day-to-day operations of grant activities. Grantees must monitor
                                       grant-supported activities to ensure compliance with applicable Federal
                                       requirements and that performance goals are being achieved. It further states
                                       that grantee monitoring must cover each program, function, or activity.

                                       We determined that TDA’s temporary employees entered the application data
                                       into Excel spreadsheets by each irrigation district. The staff then compared the
                                       data on the applications to the data entered on the spreadsheets as a check for
                                       duplicate acreage within each irrigation district. Before the payments were
                                       issued, the staff sorted the data by account number and then by unique number5
                                       within the irrigation district.

                                       For 11 of the 32 irrigation districts, we analyzed the application data in the
                                       Excel spreadsheets to identify whether payments for 2002 crop-year losses
                                       included duplicate acreage. We selected these 11 irrigation districts because
                                       they had a large number of payments, or because we had already selected the
                                       irrigation district for review of producers’ application data. Producers in these
                                       11 irrigation districts received 1,416 payments totaling $6,460,269. We found
                                       that four producers received duplicate payments totaling $54,174. One
                                       producer received duplicate payments totaling $52,968 because he claimed the
                                       same acreage in two different water districts. We identified the duplicate
                                       payments by sorting each irrigation district by unique number and account
                                       number and then checking for duplicate account numbers.

                                       We informed TDA officials of the duplicate payments, and they took action to
                                       recover the payments. As of June 3, 2004, TDA officials had recovered three of

4
    Title 7, Code of Federal Regulations (CFR), Chapter XXX, part 3016, section 3016.40(a), revised January 1, 2004
5
    A control number TDA assigned to each application for tracking purposes

USDA/OIG-A/03099-180-Te                                                                                               Page 3
                   the four duplicate payments totaling $53,782. TDA officials notified the
                   remaining producer on May 7, 2004, that he and another producer made claims
                   on the same acreage and requested repayment of $392.16.

                   Additionally, TDA officials have developed a plan to identify whether other
                   duplicate payments were made. TDA’s information technology staff plans to
                   merge the Excel files and import the files into Access and then into Oracle for
                   analysis. If additional duplicate payments are identified, TDA will recover the
                   duplicate payments from the producers.

Recommendation No. 1

                   Direct TDA to review producers’ payments for duplicate payments for 2001
                   and 2002 crop-years, recover all duplicate payments, and report the amount
                   to the Office of Inspector General (OIG).

                   FSA Response. The Financial Management Division (FMD) will request
                   TDA to review producer payments for the 2001 and 2002 crop-years and
                   recover all duplicate payments identified. FMD will also request TDA to
                   report the results of their review and subsequent collections to FMD. The
                   data will be provided to OIG. The request to TDA will be sent by October 15
                   and a report from TDA will be requested by November 30.

                   TDA Response. TDA concurs with the recommendation. TDA stated that
                   it completed an analysis of all payments for 2001 and 2002 crop-years. Its
                   review discovered an additional duplicate payment. TDA is currently in the
                   process of recovering those funds. TDA agreed to provide the results of its
                   analysis and recovery efforts when it has recovered the duplicate payment.

                   OIG Position. To accept a management decision, please provide the details
                   of TDA’s review, including the number and amount of duplicate payments,
                   the amount recovered and the disposition of funds recovered.




Finding No. 2      Distribution of Grant Funds Needs Legal Review

                   TDA provided $20 million in grant assistance to producers based on a flat
                   rate per-acre of irrigation allocation right instead of basing the payments on
                   the economic losses producers incurred.            TDA used the alternative
                   methodology in part because studies by the Texas Cooperative Extension
                   Service and USDA Office of the Chief Economist indicated that producers’
                   losses could not be readily quantified. As a result, it appears TDA’s method
                   of providing assistance may not conform to the law.


USDA/OIG-A/03099-180-Te                                                                    Page 4
                                      Two public laws6 required the amount of grant assistance provided to
                                      individual producers with farming operations along the Rio Grande to be
                                      proportional to the actual or economic losses7 incurred by the producers due
                                      to the failure of Mexico to deliver water to the United States in accordance
                                      with the treaty. Both of the grant agreements TDA signed with CCC required
                                      TDA “to use the funds only in a manner that is in accordance with the terms
                                      of the authorizing legislation.”

                                      We found that TDA officials distributed grant funds to producers based on a
                                      flat rate per-acre of irrigation allocation right, which it believed was the only
                                      possible way to efficiently disburse the payments. TDA calculated the flat
                                      rate by dividing each year’s $10 million grant minus administrative costs by
                                      the total number of acres determined eligible for payment. TDA’s
                                      justification for attributing the losses to all irrigated farms, and allowing all
                                      who were eligible for water allocations to be eligible for a portion of the
                                      economic loss assistance, was based on its conclusion that payments on
                                      actual annual losses would be virtually impossible to compute in this
                                      situation. In reaching this conclusion, TDA officials relied on two studies
                                      issued by the USDA Office of the Chief Economist and the Texas
                                      Cooperative Extension Service, as well as input from Rio Grande Valley
                                      stakeholders, State agriculture economists, and State and Federal
                                      representatives .

                                      Conference report 107-275 requested USDA to estimate the value of the
                                      annual loss of U.S. agricultural production due to the deficit in Mexican
                                      water deliveries. In answer to the conference report, the Office of the Chief
                                      Economist reported that insufficient water likely played an important role in
                                      cropping choices of Rio Grande Basin producers; however, it gave three
                                      reasons for being unable to quantify the losses. First, the water deficit in
                                      Mexican deliveries could not be related to the annual surface water
                                      withdrawals by agricultural irrigators due to lack of data. Second, data on
                                      acreage planted to all crops, irrigated and dry land, was incomplete. Third,
                                      there were numerous factors affecting planted areas in the region during the
                                      period of deficit deliveries. Among others, these factors included insect
                                      losses, devastating freezes, low crop prices, rising farm production costs, and
                                      concerns over pesticide use and regulations.

                                      The Texas Cooperative Extension Service’s study concluded that crop data
                                      limitations did not allow for a comprehensive treatment of the issue using the
                                      “historical damages approach.” However, based on the “value of water
                                      approach,” the study estimated the average annual regional economic loss


6
  Public Law 107-206, Title I, Chapter 1, section 102(a) and (b), dated August 2, 2002, and Public Law 108-7, Title II, section 209(a) and (b), dated
February 20, 2003
7
  Although the authorizing legislation for the 2 years is essentially the same, Public Law 107-206, Title I, Chapter 1, section 102(b) uses the term “actual
losses” while Public Law 108-7 Title II, section 209(b) uses the term “economic losses.”

USDA/OIG-A/03099-180-Te                                                                                                                            Page 5
                                      associated with a water shortage of 350,0008 acre-feet would be about
                                      $134.6 million.

                                      Prior to signing the first of two grant agreements with CCC, TDA officials
                                      submitted a draft agreement to FSA National Office officials outlining their
                                      proposed disbursement plan. The draft agreement contained language stating
                                      that payments would be based on total farming acres eligible in 2001 to
                                      receive water allocations from the Rio Grande water master system divided
                                      by the $10 million in disaster assistance. Accompanying the draft agreement
                                      was an executive summary that outlined TDA’s justification for the proposed
                                      disbursement plan.

                                      FSA National Office officials did not submit the draft agreement with
                                      accompanying executive summary to OGC to determine legal sufficiency.
                                      Also, FSA National Office officials stated they neither approved nor
                                      disapproved the proposed disbursement plan. When asked why they neither
                                      approved nor disapproved the State’s disbursement plan, one official stated
                                      that FSA does not typically provide programmatic oversight for CCC-funded
                                      grants unless the legislation requires it, and the legislation for these grants did
                                      not.

                                      In conclusion, even though TDA officials provided a copy of the proposed
                                      disbursement plan that did not appear to conform to the law, CCC officials
                                      tacitly approved the plan by signing the grant agreements, which did not
                                      disavow TDA’s proposed disbursement plan.

Recommendation No. 2

                                      Seek clarification from OGC regarding whether the methodology TDA used
                                      to disburse grant assistance to producers conformed to the law, and take
                                      appropriate action to address OGC’s clarification or advisory opinion.

                                      FSA Response. Based on discussions between FSA and OGC this
                                      recommendation will be addressed upon issuance of final report.

                                      TDA Response. TDA concurs with the recommendation. Early on in the
                                      planning phase to distribute the first assistance payments, TDA determined,
                                      based on the studies conducted by the USDA Chief Economist, the Texas
                                      Cooperative Extension Service, as well as input from Rio Grande Valley
                                      stakeholders, State agriculture economists, and State and Federal
                                      representatives, that it was not possible to distribute the monies in accordance
                                      with a strict interpretation of the law. TDA developed an alternative proposal
                                      for the distribution of the payments and sought and obtained the written
                                      approval of FSA and CCC prior to the distribution of the funds.

8
    Average annual required minimum water delivery from Mexico under the 1944 treaty

USDA/OIG-A/03099-180-Te                                                                                          Page 6
                                       TDA also stated that it feels confident that OGC will conclude that TDA’s
                                       methodology for the distribution of the assistance payments was the only way
                                       to fairly distribute the funds and this method also complied with the spirit and
                                       intent of the law.

                                       OIG Position. Although TDA officials believed FSA had provided written
                                       approval of their alternative proposal for distribution of payments, FSA
                                       officials indicated they neither approved nor disapproved the plan, and our
                                       review of FSA and TDA records did not confirm written approval. However,
                                       we did conclude, as noted on the previous page, that FSA officials tacitly
                                       approved TDA’s plan.

                                       To accept a management decision, please provide a copy of OGC’s opinion,
                                       and as necessary, provide FSA’s planned actions and time frame for
                                       addressing OGC’s clarification or advisory opinion.




Finding No. 3                          FSA Did Not Require Offset of Federal Debt

                                       TDA offset $17,462 in State debt owed by producers against grant assistance,
                                       but did not offset Federal debt because FSA National Office officials did not
                                       consider including Federal debt offset procedures in the grant agreements.
                                       As a result, FSA missed opportunities to initiate offset actions on at least
                                       $244,900 in Federal debt.

                                       Federal regulations9 state that unless otherwise required by statute, awarding
                                       agencies shall not withhold payments for proper charges incurred by grantees
                                       or subgrantees unless the grantee or subgrantee is indebted to the United
                                       States.

                                       To determine whether debts/delinquencies existed that could have been
                                       subject to offset actions, we identified the number of FSA producers having
                                       outstanding FSA debt older than 60 days in one of the nine counties and the
                                       number of delinquent FSA borrowers having delinquent amounts in four
                                       counties. We then compared these producers to TDA’s list of producers
                                       receiving payments. We identified 25 producers with FSA debts totaling
                                       $2,690,687. Since these producers were indebted to the United States, we
                                       concluded that FSA officials could have had a legal basis for incorporating
                                       the requirements in the grant agreements for offset of Federal debt.
                                       However, because procedures were not established for offsetting Federal
                                       debt, FSA missed opportunities to initiate offset actions involving $32,228

9
    Title 7, CFR, Chapter XXX, part 3016, subpart C, section 3016.21(g), revised January 1, 2004

USDA/OIG-A/03099-180-Te                                                                                         Page 7
                   from 4 producers on FSA’s debt register and $212,672 from 21 delinquent
                   FSA borrowers, for a total offset of $244,900.

                   TDA’s check against State debt, on the other hand, resulted in the State
                   offsetting $17,462. Also, because of TDA’s threat of offset, 16 producers
                   cleared State debt so they could receive their payments totaling $75,195.

Recommendation No. 3

                   Request OGC to determine whether FSA can, for these types of grants,
                   legally require grantees to reduce recipients’ grant payments by the amount
                   of their Federal debt.

                   FSA Response. The Financial Management Division will request OGC to
                   determine whether FSA/CCC can, for these type grants, legally require
                   grantees to reduce recipients’ grant payments by the amount of their Federal
                   debt. This request to OGC will be sent by October 15 requesting a response
                   by November 30.

                   TDA Response. TDA concurs with the recommendation.

                   OIG Position. We accept the management decision. For final action,
                   please provide the Office of the Chief Financial Officer, Planning and
                   Accountability Division a copy of the letter requesting the OGC opinion.

Recommendation No. 4

                   If OGC identifies no legal barriers, incorporate Federal debt offset
                   requirements in future CCC-funded grant agreements, as appropriate.

                   FSA Response. Based on the results of the OGC determination, any
                   future similar grant agreements will be modified to include the OGC
                   determination, as applicable.

                   OIG Position. To accept a management decision, please provide a copy of
                   OGC’s opinion, and as applicable, provide FSA’s planned actions, including
                   draft manual directives, and timeframe for incorporating Federal debt offset
                   requirements in CCC-funded grant agreements.




USDA/OIG-A/03099-180-Te                                                                 Page 8
General Comments
                                            .
                                        We identified four additional issues during our review. Since either the State
                                        took corrective action during the review or no additional funding is under
                                        consideration, we are providing these comments for your information and
                                        consideration when providing oversight for future grants.

                                        Interest TDA Earned on Grant Funds Was Not Forwarded to CCC Quarterly -
                                        We determined that, as of March 26, 2004, TDA paid CCC $72,769 for
                                        interest earned on 2002 grant funds and $55,584 for interest earned on 2003
                                        grant funds. While CCC received all interest TDA earned on the grant funds,
                                        TDA had not remitted interest earned quarterly to CCC totaling $30,367 prior
                                        to our visit. This occurred because TDA lacked monitoring controls to ensure
                                        that interest earned was promptly paid to CCC. As a result, TDA did not
                                        always forward interest earned in accordance with the grant agreement. The
                                        grant agreement requires that interest earned by the State be handled in
                                        accordance with Title 7, CFR, part 3016. Federal regulations10 state that
                                        grantees should promptly, at least quarterly, remit interest earned on advances
                                        to the Federal agency. We found that three of nine payments (33.33 percent)
                                        were made at least 5 months after the interest was earned, and two of the
                                        three payments were made 8 months after the interest was earned. All three
                                        of these interest payments were made after our visit to TDA. TDA plans to
                                        implement a control requiring personnel to monitor the accounts to ensure
                                        interest earned is returned to the grantor in a timely manner.

                                        Payments May Not Have Been Reported as Income to the Internal Revenue
                                        Service (IRS) – We found that TDA had not scheduled payments to be reported
                                        as income to the IRS prior to our review. This occurred because the grants
                                        were not coded as 1099 eligible in the TDA accounting system. As a result,
                                        over $19 million in producer payments would not have been subject to Federal
                                        income tax. The grant agreements stipulated that the State was responsible for
                                        reporting all the funds expended as required by the IRS. After bringing the
                                        matter to the attention of State officials, TDA officials determined that the
                                        payments should be reported as income per their discussion with representatives
                                        of the IRS. TDA officials reported the payments as income to the IRS on
                                        March 29, 2004.

                                        Controls Over Accounting System Access – We noted that two TDA
                                        employees unknowingly had super-user access allowing them full access to
                                        everything in the accounting system,11 including the ability to enter and make

10
     Title 7, CFR, Chapter XXX, part 3016, subpart C, section 3016.21(i), revised January 1, 2004
11
     TDA’s internal accounting system is referred to as GFAS (graphical financial accounting system).

USDA/OIG-A/03099-180-Te                                                                                         Page 9
                                   changes to producers’ payments in TDA’s accounting system. This occurred
                                   because there were no controls in place to require periodic review of
                                   employees’ access levels. Federal regulations12 state that key duties and
                                   responsibilities in authorizing, processing, recording, and reviewing official
                                   agency transactions should be separated among individuals. Managers
                                   should exercise appropriate oversight to ensure individuals do not exceed or
                                   abuse their assigned authorities. Upon notifying TDA of the system
                                   weakness, the employees’ user profiles were immediately corrected. All
                                   payments we tested were appropriately authorized.

                                   We determined that the State has a process to monitor user access to the
                                   accounting system; however, it was not formally documented. To ensure the
                                   integrity of accounting system user access, we conclude that the State should
                                   strengthen internal controls by establishing written procedures requiring
                                   periodic review of user access to the accounting system.

                                   Funds Remain at End of Grant Period – TDA did not expend all grant funds
                                   for 2001crop-year losses before the end of the grant period. This condition
                                   occurred because TDA’s and FSA’s internal control procedures did not
                                   ensure that an extension of the grant period was obtained before the end of
                                   the grant period. As a result, $50,018 in grant funds for 2001 crop-year
                                   losses was not returned to CCC. Federal regulations14 state that where a
                                   funding period is specified, a grantee may charge to the award only costs
                                   resulting from obligations of the funding period unless carryover of
                                   unobligated balances is permitted. Federal regulations15 state that the Federal
                                   agency will close out the award when it determines that all applicable
                                   administrative actions and all required work of the grant have been completed.
                                   Within 90 days after the expiration or termination of the grant, the grantee must
                                   submit all financial, performance, and other reports required as a condition of
                                   the grant. The grantee must immediately refund to the Federal agency any
                                   balance of unencumbered cash advanced that is not authorized to be retained for
                                   use on other grants.

                                   Provisions in the grant agreements provide that the State shall have a period of
                                   1 year from receipt in which to complete its own distribution of the funds made
                                   available by the grant. The agreements between CCC and TDA for 2001 and
                                   2002 crop-year losses were signed on October 28, 2002, and March 27, 2003,
                                   respectively. TDA received the grant funds for both years on November 1,
                                   2002, and April 4, 2003, respectively. The first grant period was November 1,
                                   2002, through November 1, 2003, and the second grant period was April 4,
                                   2003, through April 4, 2004. TDA reported all funds expended for the first
                                   grant for the quarter ended June 30, 2003. All grant funds for both years should
12
   Office of Management and Budget Circular No. A-123, section II, revised June 21, 1995
13
   Appendix III to Office of Management and Budget Circular No. A-130, Security of Federal Automated Information Resources, revised November 28,
2000
14
   Title 7, CFR, Chapter XXX, part 3016, subpart C, section 3016.23(a), revised January 1, 2004
15
   Title 7, CFR, Chapter XXX, part 3016, subpart D, section 3016.50(a-b) and (d), revised January 1, 2004

USDA/OIG-A/03099-180-Te                                                                                                             Page 10
                   have been expended by November 1, 2003, and April 4, 2004. In January 2004,
                   $50,018 in grant funds was reported as available for the first grant. Therefore,
                   an extension of the grant period was needed once the funds were reported as
                   available since the grant period ended on November 1, 2003. TDA officials
                   requested guidance for obtaining grant extensions from FSA National Office
                   officials on March 22, 2004. On April 16, 2004, TDA officials submitted a
                   letter to CCC requesting extensions for both grant periods. CCC approved
                   the request for grant period extensions on April 29, 2004, giving TDA
                   officials until September 30, 2004, to disburse remaining funds for both grant
                   periods.




USDA/OIG-A/03099-180-Te                                                                   Page 11
Scope and Methodology
                                         Federal assistance grants totaling $10 million each year were provided for
                                         producers’ 2001 and 2002 crop-year losses in nine counties along the Rio
                                         Grande in Texas. We reviewed payments related to both 2001 and 2002
                                         crop-years. As of January 21, 2004, the State made 1,870 payments totaling
                                         $9,917,538 and 2,019 payments totaling $9,859,813 to producers for 2001
                                         and 2002 crop-year losses, respectively. The balance of the $20 million in
                                         grant funds was available to TDA for administrative costs.

                                         We performed fieldwork at the TDA State Office in Austin, Texas; Hidalgo
                                         County FSA Office in Edinburg, Texas; Texas Commission on
                                         Environmental Quality (water master) in Harlingen, Texas; and 21 irrigation
                                         district offices located in Cameron, Hidalgo, and Maverick Counties. There
                                         were 32 irrigation districts16 in the 9 eligible counties. We also performed
                                         fieldwork via telephone and requested documentation from the FSA National
                                         Office. We judgmentally selected 40 payments totaling $1,686,071 of
                                         $9,859,813 (17 percent) made to 31 producers for 2002 crop-year losses. We
                                         based our selection on high dollar payments or payments made to producers
                                         identified as irrigation district employees in these counties. We also
                                         reviewed five high dollar payments for 2001 crop-year losses totaling
                                         $448,708 made to five producers who also received payments in our 2002
                                         sample. We reviewed the 2001 and 2002 crop-year loss payments to
                                         determine the adequacy of controls over producer eligibility and correctness
                                         of producer payments.

                                         To accomplish our objectives and support our results, we (1) reviewed
                                         Federal regulations, legislative history and laws, and agency policies and
                                         procedures, (2) examined reports and studies about the economic impact of
                                         drought and water availability to the Rio Grande, (3) reviewed controls over
                                         approval and distribution of grant funds, eligibility of producers, and
                                         accuracy of payments, (4) reviewed an internal report by the TDA internal
                                         audit staff, and (5) relied upon documentary, analytical, physical, and
                                         testimonial evidence while conducting our review.

                                         We conducted our fieldwork from January through June 2004 in accordance
                                         with Government Auditing Standards and OIG policies and procedures.




16
     The usage of irrigation districts here means 28 irrigation district offices, 3 FSA County Offices, and the Rio Grande Water Master’s Office.

USDA/OIG-A/03099-180-Te                                                                                                                             Page 12
Exhibit A – Summary of Monetary Results
                                                                        Exhibit A – Page 1 of 1



Finding   Recommendation
Number    Number                Description         Amount             Category
                                                               Questioned costs, recovery
   1            1          Duplicate payments   $     54,174
                                                               recommended




USDA/OIG-A/03099-180-Te                                                              Page 13
Exhibit B – FSA Response
                           Exhibit B – Page 1 of 2




USDA/OIG-A/03099-180-Te                 Page 14
                          Exhibit B – Page 2 of 2




USDA/OIG-A/03099-180-Te                Page 15
Exhibit C – TDA Response
                           Exhibit C– Page 1 of 2




USDA/OIG-A/03099-180-Te                Page 16
                          Exhibits C - Page 2 of 2




USDA/OIG-A/03099-180-Te                 Page 17
Informational copies of this report have been distributed to:

Farm Service Agency                                             (4)
Director, OCFO/Planning and Accountability Division             (2)
General Accountability Office                                   (2)
Office of Management and Budget                                 (1)
